IN THE SUPREME COURT OF THE UNITED STATES

HODGES, MELVIN, JR.
Petitioner
vs.

No:

19-1133

USA
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

NOEL J. FRANCISCO
Solicitor General
Counsel of Record
March 20, 2020
cc:

See Attached List

SARAH M. KONSKY
JENNER & BLOCK
SUPREME COURT & APPELLATE
CLINIC
UNIVERSITY OF CHICAGO LAW
SCHOOL
1111 E. 60TH STREET
CHICAGO, IL 60637
MATTHEW S. HELLMAN
JENNER & BLOCK LLP
1099 NEW YORK AVENUE, NW
SUITE 900
WASHINGTON , DC 20001-4412
MICHAEL FILIPOVIC
FEDERAL PUBLIC DEFENDER'S
OFFICE
1601 FIFTH AVENUE
SUITE 700
SEATTLE , WA 98101

